Office of Material Loss Reviews
Report No. IDR-11-005


In-Depth Review of the Failure of
Wheatland Bank, Naperville, Illinois




                                  January 2011
                                     Executive Summary

                                     In-Depth Review of the Failure of Wheatland
                                     Bank, Naperville, Illinois
                                                                                    Report No. IDR-11-005
                                                                                            January 2011

Why We Did The Audit

The Illinois Department of Financial and Professional Regulation (IDFPR) closed Wheatland Bank
(Wheatland or the Bank), Naperville, Illinois on April 23, 2010 for conducting its business in an unsafe
and unsound manner and named the FDIC as receiver. On May 14, 2010, the FDIC notified the Office of
Inspector General (OIG) that Wheatland’s total assets at closing were $480 million and the estimated loss
to the Deposit Insurance Fund (DIF) was $133 million. As of November 30, 2010, the estimated loss to
the DIF had increased to $147 million. The OIG contracted with KPMG LLP (KPMG) to conduct a
review of Wheatland’s failure.

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform Act) amends
section 38(k) of the Federal Deposit Insurance Act (FDI Act) by increasing the material loss review
(MLR) threshold from $25 million to $200 million for losses that occur for the period January 1, 2010
through December 31, 2011. The Financial Reform Act also requires the OIG to review all other losses
incurred by the DIF to determine (a) the grounds identified by the state or Federal banking agency for
appointing the Corporation as receiver and (b) whether any unusual circumstances exist that might
warrant an in-depth reviews of the loss. KPMG’s fieldwork had begun at the time the Financial Reform
Act was enacted. Although the estimated loss for Wheatland did not meet the amended threshold
requiring an MLR, the OIG determined that certain circumstances pertaining to the failure of the Bank
warranted an in-depth review as authorized by the Financial Reform Act.

Consistent with the Financial Reform and FDI Act provisions described above, the objectives of this
review were to (1) determine the causes of Wheatland’s failure and the resulting loss to the DIF and
(2) evaluate the FDIC’s supervision of the Bank, including the FDIC’s implementation of the Prompt
Corrective Action (PCA) provisions of section 38 of the FDI Act.


Background

Wheatland was a state nonmember bank that became insured on November 17, 2006 and opened for
business on February 5, 2007. Headquartered in Naperville, Illinois, 30 miles west of Chicago, the Bank
did not have any branch offices or affiliates.

Wheatland commenced operations pursuing a community bank business plan that emphasized
Commercial Real Estate (CRE) lending and, in particular, Acquisition, Development, and Construction
(ADC) loans. Growth in excess of business plan projections occurred soon after the Bank opened for
business. To fund its asset growth and operations, the Bank offered high-yield Certificates of Deposit
(CD) and increased its use of brokered deposits in 2008.




                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                     In-Depth Review of the Failure of Wheatland
                                     Bank, Naperville, Illinois
                                                                                    Report No. IDR-11-005
                                                                                            January 2011




Audit Results

Causes of Failure and Loss

Wheatland’s failure can be attributed to the Board of Directors’ (Board) and management’s aggressive
growth strategy for a de novo institution—funded by volatile, high-rate deposits—that led to high CRE
and ADC loan concentrations. Overall, management and the Board failed to establish appropriate
practices to mitigate the risk associated with this strategy. Weak credit administration practices along
with continued aggressive growth in a deteriorating economy contributed to a precipitous deterioration in
asset quality and, ultimately, poor earnings and insufficient liquidity and capital. The Board and Bank
management failed to address regulatory warnings regarding excessive growth, insufficient staffing, asset
quality deterioration, and a lack of risk diversification. Disagreements among members of the Board and
Bank management were in part to blame for the Bank’s failure to implement timely corrective action to
resolve these issues.

The FDIC’s Supervision of Wheatland

The FDIC’s and the IDFPR’s examinations and visitations of Wheatland followed examination
procedures and guidance applicable to a de novo bank and identified key risks, including asset growth far
exceeding business plans, high CRE and ADC loan concentrations, credit administration weaknesses, and
dependence on high rate CDs as a funding source, all of which eventually contributed to the Bank’s
failure. These concerns were addressed by the regulators through supervisory actions in 2008 and 2009.
However, by that point in time, the actions could not effectively address the Board’s failure to curtail
growth and improve asset quality in a deteriorating economy, practices which had an adverse financial
impact and led to the bank’s failure in 2010.

Wheatland signed a Bank Board Resolution (BBR) in September 2008 to correct deficiencies noted at the
February 2008 examination. Nevertheless, due to adverse changes in the economy, and the combination
of Wheatland’s risk management weaknesses, excessive asset growth, and high CRE and ADC loan
concentrations, the financial condition of the Bank significantly deteriorated by the February 2009
examination. By the time the Bank’s Board agreed to a Consent Order with more stringent requirements
in December 2009, the viability of the institution was seriously in question as a consequence of the high
level of classified loans and eroding capital protection.

In retrospect, the regulators may have benefited from a more forward-looking approach to addressing the
2007 and 2008 examination findings and overall risk profile, especially given the excessive growth
beyond the Bank’s original business plan. Such an approach may have involved earlier and stronger
supervisory actions, including restriction of asset growth to a more reasonable level for a de novo
institution, particularly with the Bank’s strategy to concentrate asset growth in CRE and ADC loans.

Based on the supervisory actions taken with respect to Wheatland, the FDIC properly implemented
applicable PCA provisions of section 38 of the FDI Act.




                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                      In-Depth Review of the Failure of Wheatland
                                      Bank, Naperville, Illinois
                                                                                       Report No. IDR-11-005
                                                                                               January 2011



Management Response

After we issued our draft report, management officials provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. The Director, DSC,
provided a written response to the draft report dated January 5, 2011. That response is provided in its
entirety on page II-2 of this report.

In the response, the DSC Director reiterated the causes of Wheatland’s failure and summarized the
regulators’ supervisory activities, as described in our report. The response also stated that, in recognition
that stringent supervisory attention is necessary for de novo institutions, DSC has extended its supervisory
program so these institutions receive a full-scope examination every year for 7 years, as opposed to
3 years. According to DSC, de novo business plans are being closely monitored against approved
financial projections throughout the 7-year period. Additionally, DSC issued a Financial Institution
Letter in August 2009 that describes the program changes for de novo institutions and warns that changes
in business plans undertaken without required prior approval may subject an institution or its insiders to
civil money penalties.




                                  To view the full report, go to www.fdicig.gov
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, VA 22226                                                   Office of Inspector General




DATE:                                     January 21, 2011

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Stephen M. Beard
                                          Assistant Inspector General for Material Loss Reviews

SUBJECT:                                  In-Depth Review of the Failure of Wheatland Bank,
                                          Naperville, Illinois (Report No. IDR-11-005)


The subject final report is provided for your information and use. Please refer to the Executive
Summary, included in the report, for the overall audit results. The report did not contain
recommendations, thus a response was not required. However, the Division of Supervision and
Consumer Protection provided a written response dated January 5, 2011. We incorporated the
response into Part II of the final report.

If you have questions concerning the report, please contact me at (703) 562-6352 or Mike
Lombardi, Audit Manager, at (703) 562-6328. We appreciate the courtesies extended to the
audit staff.

Attachment

cc: M. Anthony Lowe, Regional Director, DSC
    Elaine D. Drapeau, Chief, Office of Internal Control and Review, DSC
    James H. Angel, Jr., Director, OERM
    Jorge A. Solis, Division Director, IDFPR
                           Table of Contents

Part I

   Report by KPMG LLP                                  I-1
   In-Depth Review of the Failure of Wheatland Bank,
   Naperville, Illinois

Part II

   OIG Evaluation of Management Response               II-1

   Corporation Comments                                II-2
      Part I

Report by KPMG LLP
         In-Depth Review of the Failure of
                Wheatland Bank
                Naperville, Illinois




Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General
January 20, 2011




KPMG LLP
2001 M Street, NW
Washington, DC
                             Table of Contents


Executive Summary                                           I-1

Background                                                  I-4

Causes of Failure and Loss                                   I-4
  Board and Management                                       I-5
  Loan Concentrations                                        I-8
  Credit Administration Practices                          I-10
  Funding Strategy                                         I-12

The FDIC’s Supervision of Wheatland                        I-14
  Supervisory History                                      I-14
  Supervisory Responses to Risks Identified at Wheatland   I-15
  Implementation of PCA                                    I-22

Appendices                                                 I-24
1. Objectives, Scope, and Methodology                      I-24
2. Glossary of Terms                                       I-27
3. Acronyms                                                I-29

Tables
1. Financial Condition of Wheatland                          I-4
2. Business Plan Projections Versus Actual Year-End 2008     I-6
3. Wheatland’s Business Plan Revisions                       I-7
4. Wheatland’s Funding Sources                             I-13
5. Wheatland’s Examination History from 2007 to 2010       I-15
6. Summary of Capital Level Categories for Wheatland       I-23

Figure
1. ADC Loans as a Percentage of Total Capital Compared
   to Peer Group                                            I-9
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




January 20, 2011


Executive Summary


Stephen M. Beard
Assistant Inspector General for Material Loss Reviews
Federal Deposit Insurance Corporation
3501 North Fairfax Drive
Arlington, VA 22226

In-Depth Review Report on the Failure of Wheatland Bank, Naperville, Illinois

Dear Mr. Beard:

This is our performance audit report on the results of the In-Depth Review of the failure
of Wheatland Bank (Wheatland), Naperville, Illinois. This assignment was initiated as a
Material Loss Review (MLR). However, on July 21, 2010, the President signed into law
the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform Act),
which amends section 38(k) of the Federal Deposit Insurance Act (FDI Act). The
Financial Reform Act increases the MLR threshold from $25 million to $200 million for
losses that occur for the period January 1, 2010 through December 31, 2011. Further, the
Financial Reform Act calls for the Office of Inspector General (OIG) to perform in-depth
reviews of failures when the associated losses are not material but they involve unusual
circumstances. In-depth reviews are required to be performed and reported in a manner
consistent with that of an MLR.

The OIG had initially retained KPMG LLP (KPMG) to perform an MLR of Wheatland.
At the time the Financial Reform Act was enacted, our fieldwork had already started.
Although the estimated loss for Wheatland did not meet the amended threshold requiring
an MLR, the OIG determined that certain circumstances pertaining to the failure of the
Bank warranted an in-depth review as authorized by the Financial Reform Act. As a
result, the OIG determined that KPMG should complete the audit and issue this report.1

Consistent with both Acts, the objectives of this performance audit were to (1) determine
the causes of Wheatland’s failure and the resulting loss to the DIF and (2) evaluate the
FDIC’s supervision of Wheatland, including the FDIC’s implementation of the Prompt
Corrective Action (PCA) provisions of section 38 of the FDI Act.

1
 In conducting this performance audit and preparing this report, KPMG relied primarily on information
provided by the FDIC OIG and the Division of Supervision and Consumer Protection (DSC). Appendix I,
Objectives, Scope, and Methodology, describes in greater detail the procedures used by KPMG.


                                                                                                   I-1
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Causes of Failure
Wheatland’s failure can be attributed to the Board of Directors’ (Board) and
management’s aggressive growth strategy for a de novo institution—funded by volatile,
high-rate deposits—that led to high Commercial Real Estate (CRE) and, in particular,
Acquisition, Development and Construction (ADC) loan concentrations. Overall,
management and the Board failed to establish appropriate practices to mitigate the risk
associated with this strategy. Weak credit administration practices along with continued
aggressive growth in a deteriorating economy contributed to a precipitous deterioration in
asset quality, and ultimately, poor earnings and insufficient liquidity and capital. The
Board and Bank management failed to address regulatory warnings regarding excessive
growth, insufficient staffing, asset quality deterioration, and a lack of risk diversification.
Disagreements among members of the Board and Bank management were in part to
blame for the Bank’s failure to implement timely corrective action to resolve these issues.
Evaluation of Supervision
The FDIC’s and the Illinois Department of Financial and Professional Regulation’s
(IDFPR) examinations and visitations of Wheatland followed applicable examination
procedures and guidance for a de novo Bank. Examiners identified key risks, including
asset growth far exceeding business plans, high CRE and ADC loan concentrations,
credit administration weaknesses, and dependence on high-rate Certificates of Deposit as
a funding source, all of which eventually contributed to the Bank’s failure. These
concerns were addressed by the regulators through supervisory actions in 2008 and 2009.
However, by that point in time, the actions could not effectively address the Board’s
failure to curtail growth and improve asset quality in a deteriorating economy, practices
which had an adverse financial impact and led to the Bank’s failure in 2010.

Due to adverse changes in the economy, and the combination of Wheatland’s risk
management weaknesses and high CRE and ADC loan concentrations, the financial
condition of the Bank had significantly deteriorated by the February 2009 examination.
In retrospect, the regulators may have benefited from a more forward-looking approach
to addressing the 2007 and 2008 examination findings and overall risk profile, especially
given excessive growth beyond the Bank’s original business plan. Such an approach may
have involved earlier and stronger supervisory actions, including restriction of asset
growth to a more reasonable level for a de novo institution, particularly with the Bank’s
strategy to concentrate asset growth in CRE and ADC loans.

Section 38 of the FDI Act, Prompt Corrective Action, establishes a framework of
mandatory and discretionary supervisory actions pertaining to all insured depository
institutions. Based on the supervisory actions taken with respect to Wheatland, the FDIC
properly implemented applicable PCA provisions of section 38.

We conducted our performance audit in accordance with Generally Accepted
Government Auditing Standards (GAGAS). These standards require that we plan and
perform the performance audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We



                                                                                            I-2
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The information included in this report was obtained during our fieldwork, which
occurred during the period from June through October 2010.

Very truly yours,




                                                                                      I-3
Background

On April 23, 2010, the Illinois Department of Financial and Professional Regulation
(IDFPR) closed Wheatland Bank (Wheatland) for conducting its business in an unsafe
and unsound manner and appointed the FDIC as receiver. On May 14, 2010, the FDIC
notified the Office of Inspector General (OIG) that Wheatland’s total assets at closing
were $480 million and the estimated loss to the Deposit Insurance Fund (DIF) was
$133 million. As of November 30, 2010, the DIF loss for Wheatland had increased to
$147 million.

Wheatland was a state nonmember bank that became insured on November 17, 2006 and
opened for business on February 5, 2007. Headquartered in Naperville, Illinois, 30 miles
west of Chicago, the Bank did not have any branch offices or affiliates. The Bank
commenced operations pursuing a community banking business plan emphasizing
Commercial Real Estate (CRE) lending and, in particular, Acquisition, Development, and
Construction (ADC) loans.

Table 1 provides details on Wheatland’s financial condition as of December 31, 2009,
and for the 2 preceding calendar years.

Table 1: Financial Condition of Wheatland
Financial Data ($000s)             12/31/2009    12/31/2008                12/31/2007
Total Assets                           435,055      483,689                    213,168
Total Loans                            399,387      399,091                    191,080
Loan Growth                               -6.37%    105.95%                         N/A
Total Deposits                          438,502      438,598                    168,789
Brokered Deposits                         38,535      99,687                     42,666
Tier 1 Leverage Capital Ratio            -1.74%        7.97%                    26.02%
Total Risk-Based Capital Ratio           -2.25%      10.56%                     22.11%
Asset Growth                            -10.05%     126.91%                         N/A
PD+NA* Loans/Gross Loans                 42.37%        3.10%                      0.00%
Return on Average Assets                 -8.94%       -1.12%                     -2.91%
RE Loans/Total Assets                    78.40%      73.07%                     78.89%
ADC Loans/Total Capital**             1459.03%      306.45%                    182.79%
CRE Loans/Total Capital**             3513.04%      706.49%                    332.64%
Source: Uniform Bank Performance Reports (UBPR) for Wheatland and Division of Supervision and
Consumer Protection’s (DSC) Supervisory History.
*Past due and non-accrual.
** Ratios as of December 31, 2009, increased due to declining capital levels.


Causes of Failure and Loss

Wheatland’s failure can be attributed to the Board’s and management’s aggressive
growth strategy—funded by volatile, high-rate deposits—that led to high CRE and, in
particular, ADC loan concentrations. Overall, management and the Board failed to



                                                                                                I-4
establish appropriate practices to mitigate the risk associated with this strategy. Weak
credit administration practices along with continued aggressive growth in a deteriorating
economy contributed to a precipitous deterioration in asset quality, and ultimately poor
earnings and insufficient liquidity and capital. The Board and Bank management failed to
address regulatory warnings regarding excessive growth, insufficient staffing, asset
quality deterioration, and a lack of risk diversification. Disagreements among members of
the Board and Bank management were in part to blame for the Bank’s failure to
implement timely corrective action to resolve these issues.

Board and Management

Wheatland’s Board and management failed to properly identify, measure, monitor,
control, and mitigate growing risks associated with the Bank’s excessive growth and
concentrations in CRE and ADC loans. In addition, management failed to correct
deficiencies in key risk management practices, react sufficiently to an economic
downturn, and establish adequate contingency liquidity plans to ensure the Bank operated
in a safe and sound manner.

Examiners at the February 2009 examination were critical of management’s performance.
Specifically, management’s appetite for growth in CRE and ADC loans continued despite
a downturn in the economy and plummeting real estate market values. In addition, while
CRE and ADC loans were originally expected to account for slightly less than half the
portfolio, they instead accounted for two-thirds. Further, management’s willingness to
lend to a select clientele base, which primarily included local developers, led to numerous
concentrations with individual borrowers and their related parties and a heightened level
of risk exposure.

Examiners at the February 2010 examination noted that two senior officials were the
main drivers behind the excessive growth and poor risk selection that had placed the
Bank in its deteriorated financial position. Further, examiners noted that the Board had
not supervised the Bank in a sound manner, and that the Board and management failed to
address regulatory warnings regarding excessive asset growth, insufficient staffing, asset
quality deterioration, and a lack of risk diversification.

Disagreements among members of the Board and the two senior officials were in part to
blame for their inability to take timely and decisive action to resolve issues noted by the
regulators. Examiners noted that, during 2007 and 2008, management—with the support
of the Board—ignored growth restrictions and examiners’ criticisms. However, by the
February 2009 examination, there was a split among management and the Board into two
groups on the direction of the Bank, with each group taking sides with one of the two
senior officials. This situation led to the eventual termination of one of the senior officials
in June 2009. A replacement was hired, but he resigned by October 2009. His
replacement assumed duties in January 2010. The Board also went through substantial
changes in 2009 and early 2010.




                                                                                           I-5
Growth Strategy and Compliance with Business Plans

Management’s risk appetite relating to aggressive loan growth, particularly in CRE and
ADC lending, contributed to the deterioration of the Bank’s financial condition.
Management pursued this strategy from its inception in 2007, dramatically exceeding the
original business plan approved for deposit insurance, and did so lacking appropriate
standards and risk management practices. Wheatland notified the FDIC after the growth
occurred, not prior, and growth continued to exceed the original and subsequent asset
growth projections. Rapid loan growth compromised loan underwriting and
administration, with eventual loan losses compromising capital.

Examiners at the August 2007 examination noted that through its first 6 months of
operation, Wheatland had achieved growth levels that were not projected in the business
plan to be met until the second quarter of the second year of operation. Six months later,
at the February 2008 examination, examiners noted that, as of December 31, 2007, assets
had grown to $213.2 million in less than 1 year. By comparison, the original business
plan had only projected growth of the Bank’s total assets in years 2 and 3 to $125.5 and
$152.5 million, respectively.

To support this excessive growth, the Bank paid premium interest rates to attract
deposits, which compressed the Net Interest Margin (NIM). The overwhelming majority
of the deposit base consisted of short-term Certificates of Deposit (CD) that were due to
mature in the next 12 months. The ability to attract deposits at reasonable rates in order to
fund loan demand and replace any maturing deposits was essential for the Bank’s
business plan to be successful.

Table 2 provides a comparison of Wheatland’s original business plan projections after
2 years of operations and the actual figures as of year-end 2008.

Table 2: Business Plan Projections Versus Actual Year-End 2008
                                        Original Business Plan
        Assets and Liabilities                                        Actual 12/31/08
                                        Projection for Year 2
                                               ($000s)                    ($000s)
Assets
  Securities                                    28,192                    60,331
  Loans                                         86,282                   399,091
  Other                                         11,069                    24,267
  Total Assets                                 125,543                   483,689
Liabilities
  Demand Deposits                               20,276                    6,490
  Savings Accounts                              11,706                     6,037
  Money Market Accounts (MMA)                   11,497                    43,331
  Time Deposits <$100,000                       32,218                   267,754
  Time Deposits >$100,000                       28,219                   114,986
  Other                                          314                      6,874
  Total Liabilities                            104,230                   445,472
Source: UBPR for Wheatland and February 2009 Report of Examination.




                                                                                          I-6
As illustrated, loan growth far exceeded original projections and represented a large
portion of the total asset growth. Within the loan portfolio, ADC loans represented a
larger than anticipated portion of the originally projected loan mix. Examiners at the
February 2009 examination noted that the original business plan at the end of year 2
projected ADC loans to be 20 percent of the volume of total loans. Actual volume was
33 percent of total loans. As discussed previously, this growth was supported largely by
CDs, which also exceeded original projections in volume and by percentage of total
assets.

Business Plan Revisions

A provision in the Order granting deposit insurance stated that the Bank must operate
within the parameters of its 3-year business plan. The Bank had to submit to the FDIC
any proposed major deviations or material changes from the plan, a minimum of 60 days
before the proposed change was implemented. In that regard, Wheatland management
amended the original business plan on several occasions. The first amendment occurred
in March 2007 as a result of a higher than projected level of capital stock being sold
during the organization of the Bank. The IDFPR, at its June 30, 2007 examination,
required another amendment due to a material deviation in the Bank’s asset growth
compared to projected growth. Subsequently, the Bank submitted updated financial
projections in December 2007 and June 2008 for the FDIC’s approval.

Table 3 summarizes the business plan revisions submitted by Wheatland and decisions by
the FDIC.

Table 3: Wheatland’s Business Plan Revisions
   Revised Business Plan
                                          Significant Updates                    FDIC Response
     Submission Date
                            Sold $6 million more in capital stock than
March 2007                                                                  Approved.
                            originally projected.
                                                                            Approved contingent upon
                            Stock offering to increase capital up to $39
June 2007                                                                   revised financial
                            million in 4th quarter of 2007.
                                                                            projections.
December 2007               Updated financial projections.                  Rejected.
June 2008                   Updated financial projections.                  Rejected.
                                                                            Approved contingent upon
                            Updated financial projections based on growth
August 2008                                                                 $15 million capital
                            that already occurred.
                                                                            injection.
Source: Reports of Examination and correspondence.

Examiners at the February 2009 examination noted that the revised business plans
submitted by the Bank in December 2007 and June 2008 were unacceptable due to the
high level of projected assets. Examiners did accept the revised business plan submitted
in August 2008, which included more realistic projections based on the Bank’s growth up
to that point in time. However, the approval was contingent upon a $15 million capital
injection, which never materialized. In the 2009 examination report, examiners noted
management’s continual failure to adhere to business plans submitted to the regulatory
agencies. Examiners also noted that management had revised business plans to reflect


                                                                                                  I-7
practices, rather than revise practices to operate within the approved business plan. As
noted earlier, the Order granting deposit insurance required that the business plan
revisions be submitted by the Bank for regulatory approval before the actual changes
occurred.

Loan Concentrations

Wheatland’s concentrations in CRE and ADC lending were significant, particularly for a
de novo institution. These loan concentrations left the Bank particularly vulnerable to a
downturn in the real estate market and were a major factor contributing to the Bank’s
failure in 2010.

Interagency guidance entitled, Concentrations in Commercial Real Estate Lending,
Sound Risk Management Practices (Joint Guidance), issued on December 12, 2006,
established levels of concentrations that may warrant greater supervisory scrutiny. The
Joint Guidance states as follows:

      An institution that has experienced rapid growth in CRE lending, has notable
      exposure to a specific type of CRE, or is approaching or exceeds the following
      supervisory criteria may be identified for further supervisory analysis of the level and
      nature of its CRE concentration risk:

      •    total reported loans for construction, land development, and other land represent
           100 percent or more of the institution’s total capital; or

      •    total commercial real estate loans as defined in this guidance represent
           300 percent or more of the institution’s total capital, and the outstanding balance
           of the institution’s commercial real estate portfolio has increased by 50 percent or
           more during the prior 36 months.

Examiners at the August 2007 state examination noted that, as of June 30, 2007, CRE
lending represented the largest share of the loan portfolio with a concentration of credit
totaling 226 percent of total capital. ADC loans totaled more than $29 million and
represented 143 percent of total capital. As shown in Figure 1, the ADC concentration
levels continued to grow during 2008 and exceeded those of the Bank’s peer group.2




2
    Wheatland’s peer group included banks opened in 2007 having assets less than $750 million.


                                                                                                 I-8
Figure 1: ADC Loans as a Percentage of Total Capital Compared to Peer Group

       350%

       300%

       250%

       200%

       150%

       100%

         50%

          0%
                  12/31/07       03/31/08      06/30/08      09/30/08       12/31/08

                                          Wheatland         Peer Group

 Source: UBPRs for Wheatland.
 Note: Year 2009 was excluded as the percentage was inflated due to diminishing capital.

The Joint Guidance states that management reporting should be timely and in a format
that clearly indicates changes in the portfolio’s risk profile, including risk-rating
migrations. In addition, CRE reporting should include a well-defined process through
which management reviews and evaluates concentration and other risk management data,
as well as special ad hoc analyses in response to potential market events that could affect
the CRE loan portfolio.

Examiners at the February 2008 examination noted that management did not formally
monitor large concentrations to individual borrowers and related parties. Further,
examiners at the August 2008 visitation noted that, in contrast with the Joint Guidance,
management had not yet implemented the appropriate reports to manage and monitor
construction and development loans.

Examiners at the February 2009 examination noted that, despite the economic challenges
faced by financial institutions, management’s focus had been primarily on loan growth
rather than risk diversification and asset quality. During 2008, management continued its
aggressive growth strategy, increasing total loans by more than $200 million (almost
110 percent) and well in excess of the most recent regulator-approved business plan.
Examiners at the February 2010 examination noted that management continued to be
deficient in its ability to manage the Bank’s concentration levels and that the Bank’s
concentrations in commercial loans represented 67 percent of total assets.




                                                                                           I-9
Credit Administration Practices

Credit administration deficiencies, namely inadequate loan monitoring and loan staffing
levels, and an Allowance for Loan and Lease Losses (ALLL) methodology that did not
adequately reflect the risk of the loan portfolio, all contributed to the failure of the Bank.

Loan Monitoring

Examiners at the February 2008 examination noted that overall loan administration
procedures were marginal. They also noted there were material deficiencies with large
concentrations of loans to individual borrowers, including inadequate identification and
documentation of the borrowers’ individual and global cash flows. Examiners also noted
deficiencies centered on monitoring equity in construction lending and related
construction timelines. Additional loan administration problems included the following:

   •   for condominium conversion projects, files typically lacked updates on current
       sales information and any changes that affected the loan; and

   •   file documentation associated with conversations or meetings with loan customers
       was less than acceptable.

Examiners at the August 2008 visitation noted continued deficiencies with regard to
monitoring equity in construction lending and related construction time lines. In addition,
the Bank needed to improve documentation of changes in construction plans and the
impact on collateral value, as well as debt service coverage.

Examiners at the February 2009 examination noted that credit administration practices
required improvement. Examiners noted that management had been unsuccessful in
addressing credit administration and credit quality issues on certain loans adversely
classified or criticized at the prior examination in February 2008.

Common characteristics of classified and criticized loans at the 2009 examination were:

   •   projects remaining under construction far beyond original plans;
   •   inadequate oversight of construction draws;
   •   lack of sales for completed projects;
   •   illiquid borrowers/guarantors unable to service debt outside of sales;
   •   establishment and replenishment of interest reserves outside the construction
       phase of projects;
   •   lack of financial information and financial analysis; and
   •   lack of meaningful real estate appraisal review.

Examiners noted that there was a substantial chance of continued deterioration, especially
considering that Wheatland had 33 percent of gross loans in ADC lending, an area
adversely affected by economic conditions at the time.



                                                                                           I-10
With respect to loan appraisals, examiners at the February 2009 examination noted that
appraisal review procedures needed to be enhanced. The Bank’s procedures required that
the credit analyst or officer review appraisals for all non-commercial credits and CRE
loans of $2 million or less. These reviews were documented only by the reviewer’s
signature on the appraisal report and/or by the reviewer noting the review date on the
Bank’s internal system. Management, however, had not implemented any type of review
checklist to perform these evaluations. There was no review process documenting the
report’s compliance with appraisal guidelines or providing narrative comments on the
assumptions used by the appraiser or the general quality of the appraisal itself.

Loan Department Staffing

At the August 2007 FDIC visitation, examiners noted that, while the loan department
staffing at the time appeared adequate, credit administration duties were carried out by
two senior management officials with assistance provided by two credit analysts and
three backroom employees. Examiners noted that, given the Bank was projecting
continued rapid growth, particularly in commercial-related loans, the hiring of additional
loan officers may be warranted in the near future. Examiners explained to both senior
management officials that, while they were successful in overseeing large portfolios
during previous jobs, they were serving primarily as loan officers in those jobs, and their
goals were limited to the production of new loans and administration of their portfolios.
While they still had these duties at this de novo institution, they also had other significant
responsibilities such as oversight of non-loan committees, strategic planning, and
management of employees.

Examiners at the February 2008 examination again noted that, while loan department
staffing appeared adequate to service the loan portfolio for credits already recorded, the
portfolio was forecasted to grow almost $120 million in each of the next 3 years, and
familiarity with credits and relationships may diminish. Further, the majority of the
increase was forecasted in CRE and ADC loans, which may be more time consuming and
require frequent management and monitoring of individual credits. Examiners further
noted that a Wheatland senior official indicated that management would add staffing as
needed, but the official did not believe additional loan officers were necessary at the time.

Examiners at the February 2009 examination continued to note concerns regarding staff
levels. Although a staffing analysis performed by an outside firm indicated that the
Bank’s staffing was adequate, it was performed prior to the examination and did not take
into account deficiencies found in credit administration. Examiners noted that the firm’s
report assessed staffing levels based on current and forecasted production volumes, along
with the current list of tasks and associated timeframes to complete the tasks. Examiners
determined that, given all of the deficiencies cited in the examination, it was questionable
that adequate staffing was in place to focus on and correct the problems noted, and at the
same time adequately perform normal day-to-day functions.




                                                                                          I-11
ALLL Methodology

According to the Interagency Policy Statement on the Allowance for Loan and Lease
Losses (Policy Statement on ALLL), the ALLL represents one of the most significant
estimates in an institution’s financial statements and regulatory reports. As a result, each
institution is responsible for developing, maintaining, and documenting a comprehensive,
systematic, and consistently applied process for determining the ALLL.

Examiners at the February 2008 examination noted that as of December 31, 2007, the
ALLL totaled $2.4 million and was considered appropriate given the risk of the loan
portfolio. Further, management intended to maintain the ALLL at 1.25 percent of average
monthly loan balances during the initial 3 years of operation, as outlined in the business
plan.

As the loan portfolio deteriorated, examiners at the February 2009 examination noted that
the ALLL was 0.86 percent of total loans as of December 31, 2008, which was
inadequate given the volume of problem credits and inherent risks in the remaining
portfolio. Further, examiners noted that the ALLL methodology had been revised since
the prior examination and the process did not fully conform to the requirements of
Financial Accounting Standards (FAS) 5 and FAS 114.3 The Bank’s methodology
accounted for average historical losses and attempted to allow for risk-based adjustments
based upon six qualitative factors. Adjustments were based on changes up to +/- 75 basis
points for increasing or decreasing risks, respectively, for each qualitative factor.
However, examiners considered the Bank’s actual qualitative adjustments low given the
asset quality deterioration and determined that the adjustments were not reflective of the
risks and exposures in each portfolio type. Further, they concluded that inadequate
internal loan grading noted during the examination had an impact on the calculated
impairment and understated the necessary ALLL.

Examiners at the February 2010 examination noted that after writing off loan losses
totaling $1.65 million identified during the examination, the ALLL was 8.78 percent of
total loans as of December 31, 2009, which was inadequate given the volume of problem
credits and inherent risks in the remaining portfolio. As a result of poor internal
impairment analysis when the Bank’s loan portfolio started to deteriorate, the ALLL did
not reflect the actual credit risk of the loan portfolio.

Funding Strategy

Examiners at the August 2007 examination noted a steep decline in liquidity due to the
rapid loan growth experienced since inception. The resulting loan-to-deposit ratio was
114 percent versus Wheatland’s internal guidelines of 95 percent. Funding for the loan
portfolio had primarily come from CDs and MMAs. The original business plan called
for a different deposit structure. The plan called for CDs and MMAs to amount to

3
  Accounting Standard Codification (ASC) Subtopics 450-20 (formerly FAS 5) and Subtopics 310-10-35
(formerly FAS 114) provide accounting guidance for loss contingencies on a collective basis and the
impairment of loans on an individual basis, respectively.


                                                                                                 I-12
approximately 54 percent of total assets as of June 30, 2007. However, the actual figure
was approximately 75 percent. Examiners further noted that, during the examination,
management began utilizing brokered deposits as an additional funding source.
Management acquired $8.7 million in brokered CDs with maturities ranging from
6 months to 36 months. This additional funding source was riskier and had a higher cost
than the originally planned funding.

Table 4 illustrates that while Wheatland did increase its MMA deposits each year, these
more stable, lower-rate deposits could not be generated at a pace to support asset growth.
At 2008 and 2009 years-end, CDs represented 87 percent and 85 percent of total deposits,
respectively.

Table 4: Wheatland’s Funding Sources
                                   Time Deposits   Time Deposits of
 Period Ending   Total Deposits                                          MMAs         Other
                                  Under $100,000   $100,000 or More
    ($000s)         ($000s)          ($000s)            ($000s)          ($000s)     ($000s)
   12/31/2007       168,789          110,361            24,888           24,917       8,623
   12/31/2008       438,598          267,754            114,986          43,331      12,527
   12/31/2009       438,502          314,428            59,017           56,644       8,413
Source: UBPRs for Wheatland.

Examiners at the February 2008 examination noted that deposit growth had been almost
entirely centered in CDs, which comprised 84 percent of total deposits as of
January 31, 2008. To attract these deposits, the Bank had maintained its CD interest rates
well above market rates. As of February 2008, Wheatland’s CD rates were 200-300 basis
points over the average of local competitor rates and 130 basis points higher than the
highest promotional rate offered by any competitor. Further, liquidity levels were strained
due to the rapid loan growth experienced by the Bank. As of January 2008, the loan-to-
deposit ratio was 112 percent and the loan-to-asset ratio was 91 percent, higher than the
Board-approved parameters of 95 percent and 85 percent, respectively.

Examiners at the February 2009 examination noted that the liquidity position was
inadequate. The Bank’s continued use of volatile funding sources and a high-cost deposit
base was a concern. Access to those funding sources would be limited if the Bank
became undercapitalized. The ability to obtain a sufficient volume of funds on reasonable
terms to meet future liquidity needs was questionable. Examiners further noted that total
deposits were comprised of an inordinate amount of time deposits, which exposed the
institution to an increased level of liquidity, volatility, and future funding risk. Examiners
also noted that it was imperative that management revise its funding plan to contemplate
a significantly reduced reliance upon brokered deposits and high-rate CDs, as well as
anticipate declines in borrowing capacity from existing sources.

Examiners at the February 2010 examination noted that, while the level of liquid assets
appeared to be sufficient to meet known funding needs over the next 90 days based on a
February 18, 2010 liquidity report, the liquidity risk profile continued to be elevated
given the Bank’s overall poor financial condition. Examiners further noted that liquidity
risk may critically impact the institution given the Bank’s distressed financial condition


                                                                                         I-13
and limited ability to raise deposits. In that regard, over the next 12 months, the Bank
would have approximately $263 million in CDs maturing that could be hard to replace.

Asset growth since the Bank’s inception funded by volatile, high-rate CDs made it
difficult for the Bank to adjust to a declining economic landscape. Wheatland did not
have a sufficient contingent liquidity plan to replace maturing deposits and manage its
funding strategy during a crisis. An updated contingency plan was approved by the Board
in January 2010 but had limited impact as the Bank was already in the midst of major
liquidity problems that contributed to its ultimate failure.

The FDIC’s Supervision of Wheatland

The FDIC’s and the IDFPR’s examinations and visitations of Wheatland followed
examination procedures and guidance applicable to a de novo bank and identified key
risks, including asset growth far exceeding business plans, high CRE and ADC loan
concentrations, credit administration weaknesses, and dependence on high-rate CDs as a
funding source, all of which eventually contributed to the Bank’s failure. From 2007 until
the Bank failed in April 2010, the FDIC conducted three examinations (one independent
and two joint with the IDFPR), and two visitations (one concurrent with an IDFPR
examination). Additionally, offsite review of the Bank included an analysis of the Bank’s
growth in June 2008 and daily liquidity monitoring beginning in March 2009. Wheatland
signed a Bank Board Resolution (BBR) in August 2008 to correct deficiencies noted at
the February 2008 examination. Subsequently, a Consent Order with more stringent
requirements was issued in December 2009. However, by the time the FDIC and the
IDFPR obtained the Board’s consent to the issuance of the Consent Order, the viability of
the institution was seriously in question as a consequence of the high level of classified
loans and eroding capital protection.

Due to adverse changes in the economy, and the combination of Wheatland’s risk
management weaknesses, excessive asset growth, and high CRE and ADC loan
concentrations, the financial condition of the Bank had significantly deteriorated by the
February 2009 examination. In retrospect, the regulators may have benefited from a
more forward-looking approach to addressing the 2007 and 2008 examination findings
and overall risk profile, especially given the excessive growth beyond the Bank’s original
business plan. Such an approach may have involved earlier and stronger supervisory
actions, including restriction of asset growth to a more reasonable level for a de novo
institution, particularly with the Bank’s strategy to concentrate asset growth in CRE and
ADC loans.

Supervisory History

Starting in August 2007, the FDIC and the IDFPR conducted two visitations and four
safety and soundness examinations of Wheatland. As a result of the Bank’s deteriorated
financial condition at the time of the February 2008 examination, the Bank agreed to a
BBR in August 2008. The following year, as a result of the February 2009 examination
and management’s inadequate implementation of the BBR provisions intended to correct


                                                                                      I-14
risk management deficiencies, the FDIC and IDFPR issued a Consent Order, which
became effective on December 31, 2009. The Consent Order required, among other
things, that Wheatland restrict asset growth, the Board take a more active role in the
affairs of the Bank, the Bank have and retain qualified management, and the Bank
increase and maintain a Tier 1 Capital Ratio of 10 percent and a Total Risk-Based-Capital
Ratio of 13 percent within 90 days of the issuance of the Consent Order.

Table 5 summarizes Wheatland’s examination history and supervisory actions from 2007
through 2010.

Table 5: Wheatland’s Examination History from 2007 to 2010
    Examination    Examination as   On-Site Supervisory   Supervisory Ratings*   Supervisory Action In Place
     Start Date       of Date              Effort               (UFIRS)
      8/2/2007           3/31/2007     State Examination**      222322/2                Insurance Order
      2/4/2008           9/30/2007      FDIC Examination        223332/3                     BBR
     8/18/2008           6/30/2008       FDIC Visitation        233332/3                     BBR
      2/9/2009          12/31/2008      Joint Examination       455544/5         BBR - Consent Order proposed
      2/1/2010          12/31/2009    Joint Examination***      555555/5                 Consent Order
Source: Supervisory History, Reports of Examination and Report of Visitation.
*Financial institution regulators and examiners use the Uniform Financial Institutions Rating System (UFIRS)
to evaluate a bank’s performance.
**FDIC visitation conducted concurrently with the state examination.
*** Started as a visitation in January 2010 and was converted to a joint examination in February 2010.

The FDIC also monitored the condition of the Bank through its offsite review process.
For example, Wheatland was identified for offsite review by the Growth Monitoring
System (GMS),4 as of March 31, 2008. The offsite review was completed on June 20,
2008 while the FDIC’s Chicago Regional Office was reviewing the February 2008
examination results, which already noted the Bank’s rapid growth.

Supervisory Responses to Risks Identified at Wheatland

Through its supervisory efforts, the FDIC and the IDFPR identified and documented key
risks at the Bank, as previously detailed in the Causes of Failure and Loss section of this
report. However, by the time the Bank’s Board consented to the Order in December 2009,
the viability of the institution was seriously in question as a consequence of the high level
of classified loans and eroding capital protection.

Orders Granting Deposit Insurance and Issuing a State Charter

The FDIC conducted a Report of Investigation prior to granting deposit insurance to the
Bank. The FDIC and the IDFPR each had requirements in the Order Granting Deposit
Insurance and in the Order Issuing a Charter, respectively, prior to the Bank’s opening.
These Orders required, among other things, that:



4
  GMS is an offsite rating tool that identifies institutions experiencing rapid growth and/or having a funding
structure highly dependent on non-core funding sources. Offsite reviews are triggered when a bank is in the
98 or 99th percentile of the distribution.


                                                                                                         I-15
   •   for a period of 3 years from the date the Bank commences general banking
       business, the Bank must receive prior written consent from the IDFPR and the
       FDIC before engaging in any significant deviation or change from the plan of
       operation or proposed business activities that were presented in the application for
       the institution;

   •   for 3 years, the Bank must maintain a Tier 1 Capital to Total Assets ratio of no
       less than 10 percent and maintain and fully fund an adequate ALLL;

   •   the Bank shall have an audit of its financial statements conducted by an
       independent public accountant annually for the first 3 years after the charter is
       issued; and

   •   no shareholders own more than 10 percent of Bank stock.

The capital requirement for Wheatland was higher than what is required of institutions to
be considered Well Capitalized. This provision was included in the Orders to address the
Bank’s planned concentration in higher-risk CRE and ADC loans. The FDIC and IDFPR
analyzed and reviewed Wheatland’s compliance with these Orders at subsequent
examinations.

August 2007 State Examination and FDIC Visitation

Based on the requirements of the Orders granting deposit insurance and issuing a charter,
and due to the asset growth the Bank experienced since inception, the IDFPR
examination required management to submit an amended business plan within 90 days
with revised figures and projections that more accurately reflected how the Bank would
be operated over the following 3 years. The Bank had achieved growth levels that were
not projected in the business plan until the second quarter of the second year of operation.
Examiners further noted that the Bank’s funding approach included more CDs and
MMAs than the deposit structure outlined in the original business plan. Examiners
recommended that the amended business plan should include the updated funding
projections. While still well above the capital levels required by the Orders, examiners
noted that the capital ratios were below the level in business plan projections because of
higher than anticipated growth and operating losses.

Examiners noted that asset quality was satisfactory and there were no adverse
classifications. Examiners also noted that CRE and ADC lending represented the largest
share of the portfolio and recommended that management should continue to closely
monitor the concentrations because of the institution’s de novo status, rapid growth in the
loan portfolio, and the inherent risk associated with construction lending. They further
noted that management was cognizant of the concentrations.

While credit administration was considered adequate, examiners made specific
recommendations that management further stratify CRE and ADC reporting by including
information related to pre-sold versus speculative housing, raw versus improved land,


                                                                                           I-16
and owner occupied versus non-owner occupied properties. Further, examiners
recommended that management should document instances where credits were funded
outside policy guidelines.

Examiners noted that the level of liquidity was adequate and not uncommon for a de
novo institution. Brokered deposit limits of 30 percent of total deposits had been
established by the Bank. In regards to funds management practices, management was
encouraged to institute a “sources and uses report” to more effectively manage the
liquidity position.

As noted in Table 5, examiners rated the Bank a “2” in the Asset Quality and
Management components as well as the overall risk management composite rating. In
retrospect, greater emphasis should have been placed on the following risk factors in
assigning these ratings: (1) Wheatland had only been in operation for a few months,
(2) the Bank had grown well beyond its initial business plan, (3) the existence of high
CRE and ADC concentrations, and (4) weak credit administration practices.

According to the Risk Management Manual of Examination Policies (Examination
Manual), an Asset Quality rating of “2” indicates that the level and severity of issues
warrant a limited level of supervisory attention. A “3” rating generally indicates that an
elevated level of supervisory attention is required. For the Management component, a
rating of “2” is associated with minor weaknesses that are not material to the safety and
soundness of the institution. On the other hand, a “3” rating indicates that risk
management practices are less than satisfactory given the nature of the institution’s
activities. Given the risks described above, rating the Asset Quality and Management
components a “3” may have been prudent to establish a more stringent supervisory tenor
during the Bank’s formative period and when it posed a heightened risk to the DIF, even
though the loans in the portfolio had not shown significant deterioration yet.

February 2008 FDIC Examination

Examiners at the February 2008 examination noted that an amended business plan, as of
year-end 2007, was submitted for regulatory approval and was being reviewed for
appropriateness during the examination. As of December 31, 2007, assets had grown to
$213 million and already exceeded the projections included in the amended plan. In
March 2008, the FDIC examiners recommended that the amended business plan not be
accepted. The examiners noted that the overall plan by management was considered
aggressive, with total asset growth rates of 64 percent and 39 percent, respectively, for
2008 and 2009.

In terms of rising CRE and ADC concentration levels and loan portfolio risk, examiners
noted that the level of adversely criticized assets, at 48 percent of Tier 1 Capital plus the
ALLL, required management’s attention.5 Examiners further noted at the examination
that management did not formally monitor individual concentrations to large borrowers.
Examiners recommended that such concentrations be presented at least quarterly at Board

5
    Adversely criticized assets include adversely classified loans and loans listed for Special Mention.


                                                                                                           I-17
meetings. In addition, examiners recommended that monitoring practices for CRE loans
should be expanded to address sensitivity and risk analysis.

With respect to credit administration deficiencies, examiners noted that management
should closely monitor the volume of loans to individuals with lower credit quality
characteristics, and that all criticized loans should be placed on the Bank’s “Watch List”
and reported to the Board until material deficiencies are resolved. Examiners further
recommended that management should:

   •   update the loan policy to include leasing and sale requirements for income-
       producing property and collection of supporting documents during the
       construction period;

   •   monitor the progress of construction projects to ensure consistency with original
       timelines;

   •   establish procedures for addressing the limitation or partial recourse or non-
       recourse of borrowers and requirements for guarantor support;

   •   establish procedures for construction/land development loans refinanced from
       another institution to ensure disbursements do not exceed actual construction
       costs; and

   •   ensure an appropriate level of hard equity is maintained throughout the term of
       construction loans.

Rejection of the Bank’s year-end amended business plan was partly based on the
potential lack of loan staffing when considering projected loan growth. FDIC examiners
recommended that the Bank perform a management staffing review for the loan
department in order to determine the staffing resources that would be needed to address
projected growth levels.

Examiners noted that while the framework and analysis for the ALLL appeared
appropriate, the Bank should address areas in FAS 5 and FAS 114. Concerns noted by the
examiners included: (1) a lack of support for risk-rated loss factors assigned under the
Bank’s FAS 5 analysis; and (2) the Bank’s specific allocation under FAS 114 assigned a
standard 3 percent reserve amount against delinquent credits, which appeared to be more
of a FAS 5 allocation rather than the required impairment test for individual loans.

In response to Wheatland’s funding strategy, examiners noted that, given the anticipated
loan levels, management had not developed a formal backup or contingency plan should
deposit growth be less than forecasted or CD retention rates lower than projected.
Examiners further noted that the liquidity monitoring tools of the Board and Asset and
Liability Management Committee required improvement.




                                                                                        I-18
Supervisory Actions: As a result of this examination, Wheatland’s CAMELS composite
rating was downgraded from a “2” to a “3.” An MOU was originally recommended to
the Bank. The Board did not sign the MOU, but after discussions with FDIC Chicago
Regional Office personnel, passed a BBR containing similar provisions to those that were
included in the MOU. The resolution was passed in a meeting on August 16, 2008.
Among other things, the BBR stated that the Bank would:

   •   Conduct a written review of the Bank’s staffing requirements, with particular
       emphasis on loan underwriting, administration, and collection needs.

   •   Implement a 3-year business plan and profit plan consistent with the Bank’s loan,
       investment, and funds management policies.

   •   Develop a plan for improving liquidity and reducing the dependency on volatile
       liabilities.

   •   Revise written lending policy consistent with the comments and recommendations
       in the examination addressing CRE and ADC lending.

   •   Require complete loan documentation, realistic repayment terms, and current
       financial information to support outstanding indebtedness from each commercial
       borrower and implement an effective loan review program.

   •   Develop a monitoring system to manage and monitor concentrations of credit by
       collateral type and individual, and have a monitoring system for CRE
       concentrations that would address sensitivity and risk analysis.

   •   Revise its methodology for determining adequacy for the ALLL for deficiencies
       identified in the examination.

The BBR modified one provision in the proposed MOU that addressed the Bank’s asset
growth. The effect of this modified provision on the Bank’s growth was addressed by
examiners in the August 2008 visitation, as discussed in the next section of the report.

August 2008 Visitation

Examiners at the August 2008 visitation noted that the proposed MOU had included a
provision that was modified in the BBR that stated, in part: “Effective immediately, the
Bank shall not increase its total assets by more than 3 percent during any consecutive
three month period without first providing at least 30 days advance written notice to the
Regional Director and Assistant Director.” The BBR resolution stated, in part: “Effective
immediately, the Bank shall not increase its total assets by more than 15 percent over the
projections in its revised business plan described above without first providing at least
30 days advance written notice to the agencies.”




                                                                                       I-19
The Formal and Informal Action Procedures Manual states that “The FDIC generally
uses MOUs instead of BBRs, especially when there is reason to believe the deficiencies
noted during an examination need a more structured program or specific terms to effect
corrective action.” Given the Bank’s aggressive growth beyond business plans,
proceeding with the MOU as originally worded may have been more prudent. Examiners
at the August 2008 visitation noted that the updated provision approved by the Board
allowed the Bank to exceed projected asset growth in its business plan by as much as
$75 million more than the proposed MOU requirement, before notifying regulatory
agencies. On December 30, 2008, this provision was revised by Wheatland’s Board to
reduce planned growth from 15 percent to 5 percent, due to continued financial
deterioration and an FDIC Chicago Regional Office recommendation.

February 2009 Joint Examination

Examiners at the February 2009 examination noted management’s continual failure to
adhere to the Bank’s business plans. The business plan had been revised several times
without prior regulatory approval. Further, management had revised the business plans to
reflect practices, rather than revise practices to operate within an approved business plan.
An August 2008 revised business plan was accepted by regulators, but growth and
deviation from the plan continued.

At the time of this examination, financial deterioration was advanced. The level of
classified assets had reached 228 percent of Tier 1 Capital plus the ALLL. With respect
to concentrations, examiners noted that while management reported on concentrations to
the Board monthly, better efforts to diversify risk needed to be employed. Examiners
further recommended that CRE concentrations be stress tested for sensitivity and risk
analysis. The examination noted that this process was approved in the BBR but not
implemented.

Due to the deterioration noted in asset quality, examiners concluded that Wheatland’s
Board and management must immediately reduce the volume of adversely classified and
criticized loans to prevent further deterioration within the portfolio. Further, management
needed to implement comprehensive written workout plans for all credits that were
adversely classified or criticized. Examiners recommended that the workout plans fully
document the current status of the relationship, be updated monthly, provide an action
plan to reduce the credit balances or loss exposure, and be presented to the Board.

In reviewing the ALLL, examiners noted that due to the Bank not fully conforming to the
requirements of FAS 5 and FAS 114, the reserve level was considered low given the asset
quality deterioration and was not reflective of the risks and exposures in each portfolio
type. Examiners noted that the impairment difference appeared to be the result, in part, of
a lack of a comprehensive “Watch List,” as several adversely classified and impaired
credits were not appropriately rated and were not on the Bank’s internal “Watch List.”
Examiners highlighted the importance of a sound loan review and risk rating system in
determining the risk of the portfolio.




                                                                                        I-20
Examiners noted that the liquidity position was inadequate. The Bank’s continued use of
volatile funding sources and a high-cost deposit base was a concern. Access to those
funding sources would be limited if the Bank became undercapitalized, and the ability to
obtain a sufficient volume of funds on reasonable terms to meet future liquidity needs
was questionable. Examiners noted that it was imperative that management revise its
funding plan to contemplate a significantly reduced reliance on brokered deposits and
CDs, as well as anticipate declines in borrowing capacity from existing sources. While
Bank plans called for reducing deposit rates, the Bank would need to continue to pay
rates somewhat higher than market in order to retain deposits or garner new deposits.
Further, as liquidity levels continued to come under pressure, and with the likely need to
find new funding sources, management had to increase its monitoring and reporting of
funds management. Examiners also noted that the contingency liquidity plan needed to be
refined and updated.

Supervisory Actions: Based on the February 2009 examination findings, a Consent
Order was presented to the Bank on August 13, 2009. Changes in the Bank’s
management team and legal firm, and several requests for changes in the Consent Order’s
provisions, delayed its finalization. The Bank’s Board stipulated to the Consent Order on
December 18, 2009, and it became effective on December 31, 2009. The Consent Order
required Wheatland, among other things, to:

   •   Have and maintain a Tier 1 Capital Ratio of 10 percent and a Total Risk-Based
       Capital Ratio of 13 percent.

   •   Retain qualified management in specific key positions with certain experience and
       qualifications to fill those roles.

   •   Increase Board participation, including monthly meetings to cover reports of
       income and expenses, investment activity, operating policies, committee reports,
       audit reports, internal control reviews, reconciliation of general ledger accounts,
       and compliance with the Consent Order.

   •   Restrict growth in total assets to a maximum of 3 percent for any 3-month period
       without submitting a growth plan to the regulators prior to implementation, and a
       maximum increase in total assets of 10 percent annually.

   •   Submit a written profit plan and a realistic comprehensive budget.

   •   Submit a written plan to reduce all individual loan concentrations representing
       25 percent or more of Tier 1 Capital plus the ALLL identified in the examination
       or arising thereafter.

   •   Replenish the ALLL with more than $7 million and correct the year-end 2008
       Report of Condition and Income (Call Report) and ensure an adequate ALLL is
       provided in future Call Reports.



                                                                                       I-21
   •   Develop a plan to address liquidity and rate sensitivity and submit a daily
       liquidity analysis report to regulators.

   •   Charge off all loans classified “Loss” in the February 2009 examination.

   •   Develop a written plan to reduce the Bank’s risk position in each asset and credit
       relationship in excess of $1 million and more than 90 days delinquent or classified
       “Substandard” in the examination.

   •   Revise written lending and collection policies to provide effective guidance and
       control over the Bank’s lending function, abate additional loan deterioration, and
       address weaknesses detailed in the examination.

February 2010 Joint Examination

Examiners at the February 2010 examination noted that a substantial net loss of over
$41 million was recognized for year-end 2009 due to a low NIM and large charge-offs
resulting in the need to replenish the ALLL. An additional provision expense of
$2.1 million was needed to bring the ALLL to an appropriate level as of December 31,
2009, which would further deplete earnings and capital. Examiners also noted that
liquidity risk may critically impact the Bank given its distressed financial condition and
the limited ability to raise deposits.

Examiners noted that management’s focus on loan growth over risk diversification and
asset quality during the first 2 years of operation, despite regulatory warnings, resulted in
large adverse classification levels, significant charge-offs, and material provisions to the
ALLL, which had fully depleted capital. As of December 31, 2009, the Tier 1 Leverage
Capital was negative 1.80 percent.

Implementation of PCA

The purpose of Prompt Corrective Action (PCA) is to resolve the problems of insured
depository institutions at the least possible long-term cost to the DIF. Part 325 of the
FDIC’s Rules and Regulations implements PCA requirements by establishing a
framework for taking PCA against insured state-charted nonmember banks that are not
adequately capitalized. The FDIC is required to closely monitor the institution’s
condition and compliance with its capital restoration plan, mandatory restrictions defined
under section 38(e) of the FDI Act, and discretionary safeguards imposed by the FDIC (if
any) to determine if the purposes of PCA are being achieved. Based on the supervisory
actions taken, the FDIC properly implemented the applicable PCA provisions of
section 38.

Table 6 illustrates Wheatland’s capital level categories as of each examination date. The
Bank was considered Well Capitalized for PCA purposes until it filed its December 31,
2009 Call Report.



                                                                                         I-22
Table 6: Summary of Capital Level Categories for Wheatland
    Key Capital      Well Capitalized
    Ratios (%)        Thresholds*            Dec-09            Dec-08         Sep-07       Mar-07

 Total Risk-Based
                            10%              -2.32%            10.50%         18.03%       119.31%
  Capital Ratio

 Tier 1 Risk-Based
                            6%               -2.32%            9.23%          16.91%       118.13%
   Capital Ratio

  Tier 1 Leverage
                            5%               -1.80%            8.04%          18.99%       125.65%
       Ratio
                                         Critically Under-     Well           Well          Well
 Capital Category            -
                                            capitalized      Capitalized    Capitalized   Capitalized
Source: Reports of Examination for Wheatland Bank.
* Minimum capital requirements to be considered Well Capitalized for PCA purposes.

The Order Granting Deposit Insurance required that Wheatland maintain a Tier 1 Capital
to total assets ratio of 10 percent of more for at least 3 years after deposit insurance was
effective. Early in the Bank’s operations, capital levels remained high. For example, as of
September 30, 2007 and December 31, 2007, the Tier 1 Leverage Capital ratio was
19 percent and 26 percent, respectively. A capital injection of $22.8 million, which
occurred during the fourth quarter of 2007, contributed significantly to the Bank’s year-
end capital level.

At the February 2009 examination, while the Bank was still Well Capitalized for PCA
purposes, examiners noted that capital levels were a concern given the Bank’s overall risk
profile. Examiners noted that prior to the commencement of the examination,
management recognized the need to raise additional capital given the projected asset
growth, along with the necessity to comply with the provision in the Order Granting
Deposit Insurance requiring the Bank to maintain the Tier 1 Capital Ratio at no less than
10 percent and the Total Risk Based Capital Ratio at no less than 13 percent. The ratios
were below these thresholds at the end of the third quarter of 2008, due to continued asset
growth. The FDIC, in a letter dated December 10, 2008, notified the Bank that its Tier 1
Leverage Capital level was below the threshold required by the Order Granting Deposit
Insurance.

The FDIC issued a PCA letter on February 3, 2010 notifying Wheatland that, based on
analysis of the year-end 2009 Call Report, the Bank’s capital position had declined to
Critically Undercapitalized for PCA purposes and section 38 required the FDIC to
impose certain mandatory actions, including submission of a capital restoration plan and
restrictions on asset growth, acquisitions, and payment of dividends. The PCA letter
required that Wheatland file a capital restoration plan by March 15, 2010.

Wheatland officials discussed with the FDIC’s Chicago Regional Office officials a
potential capital raising effort in March 2010 but an actual capital restoration plan was
not submitted by the Bank. On April 23, 2010 the IDFPR closed Wheatland due to unsafe
and unsound business practices, and appointed the FDIC as receiver.


                                                                                                  I-23
                                                                          Appendix 1

Appendices
                    Objectives, Scope, and Methodology

Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the
FDI Act as amended by the Financial Reform Act that was signed into law on
July 21, 2010. The Financial Reform Act amends section 38(k) of the FDI Act by
increasing the MLR threshold from $25 million to $200 million for losses that occur for
the period January 1, 2010 through December 31, 2011. Further, the Financial Reform
Act calls for the OIG to perform in-depth reviews of failures when the associated losses
are not material but they involve unusual circumstances. In-depth reviews are required to
be performed and reported in a manner consistent with that of an MLR.

The OIG had initially retained KPMG to perform an MLR of Wheatland. At the time the
Financial Reform Act was enacted, our fieldwork had already started. Although the
estimated loss for Wheatland did not meet the amended threshold requiring an MLR, the
OIG determined that certain circumstances pertaining to the failure of the Bank warranted
an in-depth review as authorized by the Financial Reform Act. As a result, the OIG
determined that KPMG should complete the audit and issue this report.

Consistent with the Financial Reform and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of Wheatland’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of Wheatland, including
the FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

Scope and Methodology

The scope of this audit included an analysis of Wheatland from its opening in February
2007 until its failure on April 23, 2010. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and utilized the
following techniques:

    •   Analyzed examination and visitation reports prepared by the FDIC and the IDFPR
        examiners from 2007 to 2010.

    •   Reviewed the following documentation:

          •   Financial institution data and correspondence maintained at DSC’s Chicago
              Regional Office and Chicago Field Office, as provided to KPMG by DSC.

          •   Reports prepared by the Division of Resolutions and Receiverships and DSC
              relating to the Bank’s closure.



                                                                                     I-24
                                                                              Appendix 1


           •   Pertinent DSC policies and procedures.

     •   Interviewed relevant FDIC officials who had supervisory responsibilities
         pertaining to Wheatland, which included DSC examination staff in Illinois.

     •   Interviewed appropriate officials from the IDFPR to discuss the historical
         perspective of the institution, its examinations, and other activities regarding the
         State's supervision of the Bank.

     •   Researched various Banking laws and regulations.

KPMG relied primarily upon the materials provided by the FDIC OIG and DSC,
including information and other data collected during interviews. KPMG did not perform
specific audit procedures to ensure the information and data were complete and accurate.
KPMG is, however, aware that Circular 12000.1, Cooperation with the Office of
Inspector General, dated September 28, 2007, requires that all FDIC employees,
contractors, and subcontractors cooperate with the OIG in order for the OIG to carry out
its statutory mandate. To that end, all employees, contractors, and subcontractors must:

     (1) Provide authorized representatives of the OIG immediate and unrestricted
access to all Corporation, receivership, contractor, and subcontractor personnel, facilities,
equipment, hard copy and electronic records, files, information systems, and other
sources of information when requested during the course of their official duties.

     (2) Provide authorized representatives of the OIG immediate and unrestricted
access to any records or material available to any part of the FDIC.

Interviews were conducted to gain a better understanding of decisions made regarding the
supervisory approach to the institution and to clarify information and conclusions
contained in Reports of Examination and other relevant supervisory correspondence
between the FDIC and the Bank. KPMG relied on the information provided in the
interviews without conducting additional specific audit procedures to test such
information.

Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
Reports of Examination, and interviews of examiners to understand Wheatland’s
management controls pertaining to causes of failure and loss as discussed in the body of
this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the



                                                                                          I-25
                                                                            Appendix 1

effectiveness of information system controls. We relied on our analysis of information
from various sources, including Reports of Examination, correspondence files, and
testimonial evidence to corroborate data obtained from systems that were used to support
our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this in-depth review, we did not assess the strengths and
weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in OIG’s program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act and the FDIC’s Rules and Regulations.
The results of our tests are discussed, where appropriate, in this report. Additionally, we
assessed the risk of fraud and abuse related to our objectives in the course of evaluating
audit evidence.

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. Since May 1, 2009, the OIG has issued
additional MLR and IDR reports related to failures of FDIC-supervised institutions and
these reports can be found at www.fdicig.gov. The memorandum also indicated that the
OIG planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate.

In December 2010, the OIG issued an audit report entitled, Follow-up Audit of FDIC
Supervision Program Enhancements (Report No. MLR-11-010), the objectives of which
were to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs. We expect to make that report available on our Web site following presentation
to the FDIC’s Audit Committee in January 2011.

In addition, with respect to more comprehensive coverage of specific issues, in May
2010, the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                                                                        I-26
                                                                          Appendix 2


                          Glossary of Terms


          Term                                        Definition
Adversely Classified     Assets subject to criticism and/or comment in an examination
Assets                   report. Adversely classified assets are allocated on the basis of risk
                         (lowest to highest) into three categories: Substandard, Doubtful,
                         and Loss.

Allowance for Loan and   Federally insured depository institutions must maintain an ALLL
Lease Losses (ALLL)      that is adequate to absorb the estimated loan losses associated with
                         the loan and lease portfolio (including all binding commitments to
                         lend). To the extent not provided for in a separate liability account,
                         the ALLL should also be sufficient to absorb estimated loan losses
                         associated with off-balance sheet loan instruments such as standby
                         letters of credit.

Call Report              Consolidated Reports of Condition and Income (also known as
                         Call Reports) are reports that are required to be filed by every
                         national bank, state member bank, and insured nonmember bank
                         pursuant to the FDI Act. These reports are used to calculate
                         deposit insurance assessments and monitor the condition,
                         performance, and risk profile of individual banks and the banking
                         industry.

Concentration            A concentration is a significantly large volume of economically
                         related assets that an institution has advanced or committed to a
                         certain industry, person, entity, or affiliated group. These assets
                         may, in the aggregate, present a substantial risk to the safety and
                         soundness of the institution.

Consent Order            A formal enforcement action issued by financial institution
                         regulators to a bank or affiliated party to stop an unsafe or unsound
                         practice or violation. A Consent Order may be terminated by the
                         regulators when they have determined that the bank’s condition
                         has significantly improved and the action is no longer needed or
                         the bank has materially complied with its terms.
FDIC’s Supervision       The FDIC’s supervision program promotes the safety and
Program                  soundness of FDIC-supervised institutions, protects consumers’
                         rights, and promotes community investment initiatives by FDIC-
                         supervised institutions. The FDIC’s Division of Supervision and
                         Consumer Protection (DSC) (1) performs examinations of FDIC-
                         supervised institutions to assess their overall financial condition,
                         management policies and practices (including internal control
                         systems), and compliance with applicable laws and regulations and
                         (2) issues related guidance to institutions and examiners.




                                                                                       I-27
                                                                      Appendix 2

          Term                                    Definition
Material Loss         As defined by section 38(k)(2)(B) of the FDI Act, and as amended
                      by the Dodd-Frank Wall Street Reform and Consumer Protection
                      Act, for the period beginning January 1, 2010 and ending
                      December 31, 2011, a material loss is defined as any estimated loss
                      to the DIF in excess of $200 million.
Prompt Corrective     The purpose of PCA is to resolve the problems of insured
Action (PCA)          depository institutions at the least possible long-term cost to the
                      Deposit Insurance Fund. Part 325, subpart B, of the FDIC Rules
                      and Regulations, 12 Code of Federal Regulations, section 325.101,
                      et. seq., implements section 38, Prompt Corrective Action, of the
                      FDI Act, 12 United States Code Section 1831(o), by establishing a
                      framework for determining capital adequacy and taking
                      supervisory actions against depository institutions that are in an
                      unsafe or unsound condition. The following terms are used to
                      describe capital adequacy: (1) Well Capitalized, (2) Adequately
                      Capitalized, (3) Undercapitalized, (4) Significantly
                      Undercapitalized, and (5) Critically Undercapitalized.

                      A PCA Directive is a formal enforcement action seeking corrective
                      action or compliance with the PCA statute with respect to an
                      institution that falls within any of the three categories of
                      undercapitalized institutions.
Uniform Bank          The UBPR is an analysis of financial institution financial data and
Performance Report    ratios that includes extensive comparisons to peer group
(UBPR)                performance. The report is produced by the Federal Financial
                      Institutions Examination Council for the use of banking
                      supervisors, bankers, and the general public and is produced
                      quarterly from Call Report data submitted by banks.

Uniform Financial     Financial institution regulators and examiners use the Uniform
Institutions Rating   Financial Institutions Rating System (UFIRS) to evaluate a bank’s
System (UFIRS)        performance in six components represented by the CAMELS
                      acronym: Capital adequacy, Asset quality, Management practices,
                      Earnings performance, Liquidity position, and Sensitivity to
                      market risk. Each component, and an overall composite score, is
                      assigned a rating of 1 through 5, with 1 having the least regulatory
                      concern and 5 having the greatest concern.




                                                                                   I-28
                                                                             Appendix 3


                                         Acronyms


ADC        Acquisition, Development, and Construction
ALLL       Allowance for Loan and Lease Losses
ASC        Accounting Standard Codification
BBR        Bank Board Resolution
CAMELS     Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to Market
           Risk
CD         Certificate of Deposit
CRE Co       mmercial Real Estate
DIF        Deposit Insurance Fund
DSC        Division of Supervision and Consumer Protection
FAS        Financial Accounting Standard
FDI        Federal Deposit Insurance
GAGAS      Generally Accepted Government Auditing Standards
GMS        Growth Monitoring System
IDFPR      Illinois Department of Financial and Professional Regulation
LTV Loan-to-Value
MMA        Money Market Account
MOU        Memorandum of Understanding
NIM Net        Interest Margin
OIG        Office of Inspector General
PCA        Prompt Corrective Action
UBPR       Uniform Bank Performance Report
UFIRS      Uniform Financial Institutions Rating System




                                                                                         I-29
               Part II

OIG Evaluation of Management Response
OIG Evaluation of Management Response
After we issued our draft report, management officials provided additional information
for our consideration, and we revised our report to reflect this information, as appropriate.
The Director, DSC, provided a written response to the draft report dated January 5, 2011.
That response is provided in its entirety on page II-2 of this report.

In the response, the DSC Director reiterated the causes of Wheatland’s failure and
summarized the regulators’ supervisory activities, as described in our report. The
response also stated that, in recognition that stringent supervisory attention is necessary
for de novo institutions, DSC has extended its supervisory program so these institutions
receive a full-scope examination every year for 7 years, as opposed to 3 years.
According to DSC, de novo business plans are being closely monitored against approved
financial projections throughout the 7-year period. Additionally, DSC issued a Financial
Institution Letter in August 2009 that describes the program changes for de novo
institutions and warns that changes in business plans undertaken without required prior
approval may subject an institution or its insiders to civil money penalties.




                                                                                         II-1
                                    CORPORATION COMMENTS




  Federal Deposit Insurance Corporation
      550 17th Street NW, Washington, D.C. 20429-9990                   Division of Supervision and Consumer Protection

                                                                                January 5, 2011
  TO:                Stephen Beard
                     Assistant Inspector General for Material Loss Reviews

                     /Signed/
  FROM:              Sandra L. Thompson [signed by Victor J. Valdez for Sandra L. Thompson]
                     Director

  SUBJECT:           FDIC Response to the Draft Audit Report Entitled, In-Depth Review of the Failure of
                     Wheatland Bank, Naperville, Illinois (Assignment No. 2010-063)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, as amended by the Dodd-Frank Wall Street
Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s Office of Inspector
General (OIG) conducted an in-depth review of the failure of Wheatland Bank, (Wheatland) Naperville,
Illinois, which failed on April 23, 2010. This memorandum is the response of the Division of Supervision and
Consumer Protection (DSC) to the OIG’s Draft Report received on November 24, 2010.

Wheatland failed primarily because of the Board of Directors’ (Board) and management’s aggressive growth
strategy for this de novo institution funded by volatile deposits; high concentrations in commercial real estate
(CRE) and acquisition, development, and construction (ADC) loans; and the failure to establish adequate risk
management practices. Weak credit administration practices along with continued aggressive growth in a
deteriorating economy contributed to a rapid deterioration in asset quality, poor earnings, and ultimately
insufficient liquidity and capital.

From 2007 through 2010, the Illinois Department of Financial and Professional Regulations (IDFPR) and the
FDIC jointly and separately conducted four full-scope examinations and two visitations. By August 2007
Wheatland’s asset growth far exceeded original projections approved in the Deposit Insurance application,
and an amended business plan was required. The February 2008 examination noted continued aggressive
asset growth and expressed concern regarding appropriate staffing levels to address loan underwriting and
credit administration weaknesses. Based on the findings of the 2008 examination, Wheatland was
downgraded to a composite “3” rating and a Bank Board Resolution was issued. The 2009 examination noted
management’s continued failure to adhere to business plans submitted to regulatory agencies and found
Wheatland in troubled condition. Wheatland was downgraded to a composite “5” rating, and a formal
enforcement action was issued. Based on the results of the February 2010 examination, the FDIC and IDFPR
determined Wheatland was no longer viable without an immediate capital infusion which failed to materialize.

In recognition that stringent supervisory attention is necessary for de novo institutions, DSC extended its
supervisory program so these institutions receive a full scope examination every year for seven years, as
opposed to three years. De novo business plans receive careful analysis prior to an institution’s opening and
are closely monitored against approved financial projections throughout the seven year period. A Financial
Institution Letter issued in August 2009 described the program changes for de novo institutions and warned
that changes in business plans undertaken without required prior approval may subject an institution or its
insiders to civil money penalties.

Thank you for the opportunity to review and comment on the Report.

                                                                                                            II-2
